2311 Douglas Street

E-Mail Address:

Omaha, Nebraska 68102-1214

contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. - - - COUNTY OF SAN DIEGO AND
ERNESTO BANUELOS,
Petitioners,
V.

JAMES SOLER,
Respondent.
AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 30th day of August, 2019, send out
from Omaha, NE 3 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED

To be filed for:
THOMAS E. MONTGOMERY, County Counsel
COUNTY OF SAN DIEGO
THOMAS D. BUNTON, Assistant County Counsel
Counsel of Record
FERNANDO KISH, Senior Deputy
JEFFREY P. MICHALOWSKI, Senior Deputy
1600 Pacific Highway, Room 355
San Diego, CA 92101
(619) 531-4886
Thomas.Bunton@sdcounty.ca.gov
Counsel for Petitioners

Subscribed and sworn to before me this 30th day of August, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

38543

SERVICE LIST
Todd William Burns
Burns & Cohan, Attorneys at Law
1350 Columbia Street, Suite# 600
San Diego, CA 92101
(619) 236-0244
Email: todd@burnsandcohan.com

Attorneys for Respondent,
James Soler

Gabriel L. Cohan
Burns & Cohan, Attorneys at Law
444 West C Street, Suite 444
San Diego, CA 92101
(619) 236-0244
Email: gabriel@burnsandcohan.com
Edgar Nield, ESQ.
Gabrielle DeSantis Nield
Nield Law Group, APC
679 Encinitas Boulevard, Suite 201
Encinitas, CA 92024
(760) 942-9880
Email: enield@nieldlaw.com
Email: gnield@nieldlaw.com

Attorneys for Interested Parties,
Ray Hobbs and Lisa Wilkins

